1
■J

iPOCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cockl el egal briefs.com

V^^^Legal Briefs
Est. 1923

Web Site
www.cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No.
PAMELA SMITH,
Petitioner,
v.
PACEMONITOR, LLC; OKLAHOMA
ATTORNEY GENERAL; TULSA COUNTY
DISTRICT ATTORNEY; and DON COCHRAN,
Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2280 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

S ubscribed and sworn to before me this 15th day of February , 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOTARY-State of Nebraska
JS
RENEE J. QOS3

My Comm. Exp. September 5.2023
Notary Public

Affiant

40268

